HHS/OIG-Audit--"Review of Costs Claimed by Homebound Medical Care, Inc., (A-04-98-01184)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed by Homebound Medical Care, Inc.," (A-04-98-01184)
September 22, 1999
Complete
Text of Report is available in PDF format (1.29 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report estimates that Homebound Medical Care, Inc. was overpaid Medicare funds totaling at least $1.9
million for Fiscal Years 1995 through 1996 for services that did not meet Medicare reimbursement requirements. A statistical
sample of 100 claims in each fiscal year disclosed unallowable payments for: (1) 128 services that were not reasonable
or medically necessary; (2) 357 services that lacked proper physician authorization; and (3) 44 services that were not
properly documented. We recommended that the Health Care Financing Administration (HCFA) instruct the Fiscal Intermediary
(FI) to recover overpayments of $1.9 million, require the FI to instruct Homebound on its responsibility to comply with
the Medicare regulations, and monitor the FI and Homebound to ensure that corrective actions are effectively implemented.
The HCFA concurred with our recommendations.